 

 

OFFICE OF THE ARIZONA ATTORNEY GENERAL, ORAMEL H. (O.H.) SKINNER

MARK BRNOVICH SOLICITOR GENERAL

ATTORNEY GENERAL APPEALS AND CONSTITUTIONAL LITIGATION DIVISION DIRECT PHONE No.: (602) 542-8327
SPECIAL LITIGATION SECTION O.H.SKINNER@AZAG.GOV
July 2, 2020

By Electronic Filing and Electronic Mail

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE

Washington, D.C. 20543
sharris@supremecourt.gov

Re: Brnovich, et al., v. The Democratic National Committee, et al., No. 19-1257
Mr. Harris:

Pursuant to the Court’s Order dated March 19, 2020, the State of Arizona and Mark
Brnovich, in his official capacity as Arizona Attorney General, respectfully request that the
distribution of the petition for a writ of certiorari in the above-captioned case be delayed by 14
days, until July 29, 2020 (summer list 13).

Petitioners need additional time to file a reply due to difficulties and dislocations relating
to COVID-19. The COVID-19 situation is particularly acute in Arizona at this time. This has
resulted in the Office of the Attorney General resetting to “phase zero” of its worksite-reporting
plan in order to reduce, to the maximum extent possible, the number of employees reporting
physically to the worksite. Further compounding this staffing disruption, petitioners have been
unable to continue retention of outside counsel for the reply stage, as the Arizona State
Legislature preemptively adjourned in light of COVID-19 without having first passed a full-scale
budget for the next fiscal year. And these staffing disruptions come even as there has been an
increase in COVID-19-related work for the Solicitor General’s team.

Counsel for the several respondents have each consented to this request, which will
have no effect on the conference at which the petition will be considered. Respondents filed
briefs in opposition to certiorari yesterday, July 1, 2020. Absent extension, the petition is
currently set for distribution on July 15, 2020, and consideration at the end-of-summer
conference on September 29, 2020.

  

2005 NorTH CENTRAL AVENUE, PHOENIX, AZ 85004-1592 © PHONE 602.542.5025 © Fax 602.542.8308 © www.AzaG.Gov
Hon. Scott S. Harris, Clerk
July 2, 2020
Page 2

cc: Mare Erik Elias
Bruce V. Spiva
Counsel for Respondenis (by electronic mail)

Jessica Ring Amunson

Sam Hirsch

Counsel for Respondent Katie Hobbs, in her
official capacity as Secretary of State of Arizona
(by electronic mail)

Brett William Johnson
Counsel for Intervenors Below (by electronic mail)

 
